FI LED

DOCKET No. 20 -4*Vl

SB> 2 6 m
ffiSOFTHEQLgjK

IN THE SUPREME COURT OF THE UNITED STATES

STATE OF WEST VIRGINIA
Respondent

JAMAL A. AZEEZ
Petitioner
vs

ON APETITION FOR A WRIT OF CERTIORARI
TO THE WEST VIRGINIA SUPREME COURT OF APPEALS

PETITION FOR A WRIT OF CERTIORARI

Jamal A. Azeez, Petitioner
138-19 Lloyd Rd.
Jamaica, NY 11435
516-476-1779 (Cell)
Jdeen 18@Yahoo. com

Questions Presented for Review and Constitutional Provisions
1. Did the lower court condone systemic injustice against Petitioner (“Azeez”),
a colored citizen, knowing that he was falsely arrested and indicted twice1 by
the same officer that used blatant and willful perjuries because he believed
Azeez was “illegal in the country”?
2. Whether Azeez claim of actual innocence, as proven, was ignored by the
lower court, as espoused in the precedence set in McQuiggins v. Perkins, 569
U.S. 383 (2013), in which this Court held with abundance of clarity that “actual
innocence, if proven, is sufficient to circumvent the one-year2 statute of
limitations for petitioners to appeal their conviction enacted within the
Antiterrorism and Effective Death Penalty Act of 1996 (AEDPA)”. The late
Justice Ruth Bader Ginsberg (RIP) held: “Actual innocence, if proved, serves
as a gateway through which a petitioner may pass whether the impediment is a
procedural bar, such res judicata, collateral estoppel, as it was in Schlup v.
Delo. 513 U. S. 298, and House v. Bell. 547 U. S. 518, or expiration of the
AEDPA statute of limitations, as in this case. Pp. 7—14”. The Court has applied
this “fundamental miscarriage of justice exception” to overcome various
procedural defaults, including, res judicata, collateral estoppel, and as most
relevant here, failure to observe state procedural rules, such as filing
deadlines.

1 One conviction (for Failure to Appear) was reversed by a federal district court recently, but the Respondent
refused to compensate Azeez for Unjust Incarceration in a pro se Civil Rights suit.
2 Majority of the evidences (concealed through gross Prosecutorial and Police Misconduct) were discovered in
between 5 to 13 years after conviction and expiration of the one-year statute of limitation under AEDPA.
1

3. Did this case provide a classical example of ‘exceptional circumstances’ to
invoke a review knowing that the petitioner, must register for life as a
violent sexual offender under the 1996 Megan laws, as a Level 2 offender that
can never be downgraded, when such consequence did not exist in his 1987
conviction in violation on the U.S. Constitution Ex Post Facto laws?
4. Since this Court recently made changes in (Batson v. Kentucky. 476 U.S. 79)
regarding race-biased jury3 and peremptory challenges, did the lower court
ignore 2 newly-discovered evidences (Background Arrest record and Affidavit);
which prove that the only black juror was kicked out based upon a
fraudulent statement (“Juror Johnson may have been arrested, we don’t know”)
by the prosecutor that was conspiratorially not verified by the trial judge?
Many more questions could be presented as a result of gross
prosecutorial and police misconduct as seen in the 22 reversible errors
listed below. See footnote below for one such questions.
Opinions Below
(a) “Memorandum Decision” denying an appeal on a Petition for Removal of
Sexually Violent Offender designation under WV Code § 15-12-3a, issued on
6/25/2020. (Appendix A)
(b) “Order” denying a Petition for Rehearing of Appeal (Appendix A (i).
(c) “Mandate” issued during the preparation of this Petition for a Writ of
Certiorari. (Appendix B)
Parties (As_seen on cover page)
Jurisdiction
Rule 10(b)(c) of the Rules of Appellate Procedures, USCA 28 §
3 Can a fair-minded, race-neutral jury, if presented with not one, but eight
newly discovered Bradv evidences (4 expert witnesses and 4 exculpatory
scientific reports as seen below) now find Azeez factually innocent?
2

Statement of The Case

Azeez is a 67-year old citizen4, a high school valedictorian, a US Army veteran
(2nd Lt. Nuclear, Biological and Chemical Warfare specialist), a Medical Graduate
(MD), a former NYPD (Auxiliary Officer); none of which matters to the lower court,
was unprecedently arrested, indicted and convicted in 1987 for Second degree sexual
assault and sentenced 10-20 years. The alleged incident occurred while Azeez was
studying for his Medical Boards exam and working in a laboratory; a job he obtained
during a major labor strike at a Beckley Hospital. Two weeks before the strike ended,
an anonymous note was left of the Human Resource Manager’s desk saying, Jamal
was fooling around with a patient”. After an investigation, the patient bluntly denied
the allegation and Azeez continued to help saving lives in the ER as usual. His
employer, Dr. Zarina Rasheed (Chief Pathologist), a foreign and colored doctor who
conducted the investigation, warned Azeez “to be careful”.
On the very day the strike ended, and after 3 former employees returned to the
lab looking to be rehired on that same day, Azeez was approached by a nurse (Susan
Philips, LPN, a pot head) who was accompanied by her supervisor (Geneva Fox, RN)
and was told, “A patient in Room 201 said you molested her”. Instead of calling the
police and have Azeez arrested immediately, Ms. Fox demanded Azeez to turn over
the hospital beeper and lab keys, and she escorted him to the front door. Five days
later, hospital authorities finally decided to call the police. Azeez was

4 Born in South America, Azeez became a US citizen in 1979; which is 8 years prior to the alleged incident, and
had a clean and unblemished history protecting the lives of all Americans.
3

unprecedently arrested by Detective Cedric Robertson. Apparently after running a
background check, Mr. Robertson told Azeez, “You have problems with the
immigration” and assumed that Azeez was illegal in the country; which is the rail­
roading factor5 in this case. Similar perjuries and misconduct hy Mr. Robertson were
recognized by district federal court in a Failure to Appear conviction; reversed in
2003.

Facts Supporting Factual Innocence and Reversible Errors the Lower
Courts Repeatedly Ignored. Most Evidences Discovered Post-Appeal Era
1. Azeez was falsely arrested. (Appendix C: The Arrest Warrant contains many
significant perjuries-—falsely claiming that both the CIB Rape Kit and Dr. Slack’s
ER examinations reports ‘were positive for sexual intercourse” (But See #7 and #10
below) Hospital authorities purposely waited 5 days before calling the police.
2. Azeez was wrongfully indicted. (False statements sworn in the Arrest Warrant and
Complaint for Arrest were similarly made before the grand jury). Judge Hutchison
denied request for Grand Jury Minutes and accused Azeez of “going on a fishing
expedition” despite such particularized need for exposure of the minutes.
3. Judge Canterbury denied Azeez a critical witness who, prior to this case, denied a
similar accusation seen on an anonymous note, “Jamal was fooling around with a
patient”, left on the Human Resource Manager’s desk, that represents a plot to
remove Azeez who took a job from disgruntled employees during a major labor
strike. Azeez car was vandalized twice.
5 To begin, it was rather audacious, flagrant, disrespectful of the law, and racial injustice when the Arresting
Officer solemnly swore in his Arrest and Complaint for Warrant that “the rape kit analysis conducted by
Serologist Police Sergeant Fred Zain at the Police Crime lab, and the Emergency Room rape examination
conducted by Dr. Slack were both “tested positive for sexual im'ercourse”....whiie the rape kit was still in the
Beckley Police Evidence Locker unanalyzed. Bear in mind, Azeez was arrested and charged with Third Degree
sex assault Review #5 on the list below to determine how rogue Bruce Lazenby raised it to Second Degree and
got away with murder, literally. Yet the Court is blind to all of these claims while many States are establishing
“Innocence Commission”, “Integrity Unit”, etc., to review wrongful convictions dated decades ago. This is the
fate of a poor person like Azeez, unable to hire an attorney; which makes it so easy to trample upon his rights.
How could anyone ignore 22 Facts supporting Innocence? Azeez refused a Third Degree plea by Lazenby.
4

f

!

4. Azeez was accused on the day the strike ended by a nurse (Phillips) who used a
mentally retarded patient after the first attempt to frame him failed.
5. Azeez Motion for Psychiatric Evaluation To Determine Comnetencv on the alleged
victim is today still pending a resolution. Judge Canterbury knew she was
mentally incompetent. She was allowed to testify to invoke jury sympathy and with
coached testimony. (During direct examination, the woman was coached to say, “A
man in white coat threatened to stick me with needles if I scream "...specifically to
support “forcible compulsion” and “use of violence” as required under Second
Degree sexual assault statute.
6. But during cross examination, the woman told the all-white jury, “I never saw him
before—don’t know his name— could not remember anything that happened
to me”. Yet they returned a guilty verdict—racially motivated. (Appendix D).
7. Dr. Slack stated in a post-conviction hearing that he “found no objective evidence
the woman engaged in recent sexual intercourse”; let alone violent rape. But the
Judge refused to reverse the conviction even though he knew the rape kit tested by
the Police Crime Lab yielded a “negative result”. Dr. Slack ER negative rape
examination report was concealed. It was discovered 5 years after conviction
(See Appendix E)
8. Prosecutor Lazenby deceitfully stated in open court that he never knew Dr. Slack
was involved in the case. Yet in the Complaint for Warrant and his Response to
Defendant’s Motion for Discovery, prosecutor Lazenby listed Dr. Slack in his
“Witness List”. Dr. Slack was tactically withheld from trial. (See Appendix F)
9. Police Sergeant Fred Zain (Serologist) was withheld. Fred zain conducted the rape
kit analysis. Lazenby deceitfully stated at bench conference, “...I don’t know
anything about Dr. Slack...the CIB Serologist who did the (rape kit) analysis is
gone...I never received the report”. (The Serologist did not quit. See Appendix G)
10. The CIB Lab (negative) rape kit report was concealed. Arrest Warrant stated it
was “positive for sexual intercourse” while the rape kit was still in BCPD evidence
locker unanalyzed. This evidence was discovered 8 years after conviction.
(See Appendix H).
5

11. Evidence Officer Don Lilly, who received the rape kit report three months before
trial, was not called. He later confirmed that he “forward the report to the
prosecutor”. This evidence was discovered 10 years after conviction. (See
Appendix I).
12. Dr. Hassan (Psychiatrist) was withheld. He could have rendered the victim
incompetent.
13. Dr. Rasheed (Pathologist) was intentionally and conspiratorially withheld.
14. Dr. Rasheed’s acid phosphatase exculpatory report was suppressed by the Judge
in his chamber. (See Appendix J) It proves the woman had sexual intercourse at a_
time Azeez was not present. This is a rock-solid alibi defense blatantly suppressed.
15. The woman testified that she ‘ran away from Ted at Spencer Boarding Home

Ted

made me pregnant....Ted did it to me....I was in lots of pains....I want to commit
suicide....I screamed for help....”. Yet the jury returned a guilty verdict (Appendix
K (a) (b) solely based upon “Sperm Cells” found on the same acid phosphatase swab.
16. The only black juror (Mr. Joseph Johnson) was kicked out because of false
narratives; “We speculate Cedric may have arrested him, I don’t know”, as stated by
rogue prosecutor K. Bruce Lazenby. (See Appendix L)
17. Recently acquired Background Check on Mr. Johnson proves he has no arrest
record. Another recent Affidavit shows the Clerk of the Court verified Mr. Johnson
was never arrested anywhere in the country, let alone by the arresting officer in
Beckley, WV. This report was discovered 25 years after conviction. (See
Appendix: M (a) and (b).
18. Judge Canterbury did not verify Lazenby’s statement (as seen in #17 above) and
was fully cognizant that Mr. Johnson would have NEVER been called for jury duty,
and/or selected by the Clerk of the Court, if Mr. Johnson had prior arrest record.
19.Azeez attempted two DNA analysis to prove his innocence, but were rejected
because Azeez is ‘no longer incarcerated’ as ruled by WV Innocence Project, and by
District Judge (Faber) due to the “one-year “statute of limitation under AEDPA...
even though “...circumstances that the court feels make this case unique...this
petition presents a compelling case for review...it could result in evidence strongly
6

/'N

suggesting his actual innocence” (See Appendix N) Sadly, Judge Faber’s Court
(SDWV) was next-door neighbor to the court of conviction. If this case was reviewed
by Judge Maxwell (NDWV)—away from Raleigh County Court), Azeez is confident
he would be here today writing this appeal. Politics should never interfere with the
law.
20.Lazenby deliberately concealed all of the exculpatory evidences (“EXHIBITS”) as
seen in the “Police Report on Investigation” This report was discovered in 2013—
26 years after conviction. (See Appendix O (a) and (b)
21. Azeez contacted The Center For Public Integrity. A newspaper article by Associated
Press published a report illustrating “Dozens Falsely Imprisoned Due to
Prosecutor Misconduct”...an issue the WV Supreme Court failed to consider
whether the “misconduct ruled harmless error or prejudicial misconduct”. Azeez
cases were mentioned in the report published nationally. (See Appendix P (a) and
(b). Yet the lower courts ignored these warning signs of systemic injustice.
22.Azeez had only one witness at trial—his fiancee who told the jury nurse Phillips
hated him for calling her a “pot head”. None of the above potential witnesses was
interviewed or subpoenaed bv the Public Defender. Lack of money (state funds)
played a role of the wrongful conviction; in addition to a false suspicion that Azeez
was illegal in the country. The Appendices submitted are purely factual evidences
of a wrongful conviction; not the hogwash rulings of the lower courts that would be
a waste of time to review their inconclusive, unsupportive, and side-stepping views.

Additional Information for review under “Exceptional Circumstances”
Bradv and Strickland violations inundated the root cause of this case. Azeez
should have never gone through 23 years of failed pro se appeals6 when the law under
Batson clearly proscribed racial discrimination during jury selection. He should not

6 A lie doesn’t become truth, a wrong doesn’t become right, and evil doesn’t become good, just because it’s
accepted by a majority.
7

be judged, as before, by the color7 of his skin but by the content of the 23 reversable
claims illustrated above. If this type of injustice occurs frequently in big metropolis
like NYC, as in the case of the Central Park Five, one can imagine the frequency and
severity in small rural towns like Beckley, WV. Like the mayor said, “George Floyd
would still be alive today if he were white”. Azeez was tried by 5 white witnesses, none
of whom provided any eye-witness testimony of the alleged crime, and with many
contrasting testimonies. For example, Ms. Philips stated, “The woman was yelling
“Don’t let him hurt me....” The room was dark...Jamal stuttered a lot”.... while her
supervisor Ms. Fox who was present at all times stated, “No, I don’t recall the woman
making any statement...there was some light in the room

No, I didn’t hear him

stutter....”. Today Black and Brown Lives Matter. Many old and unsettled cases
of racial and systemic injustice are being given full review. Numerous states have
started reviewing wrongful convictions especially where racial injustice is a factor.
San Francisco just established the “Innocence Commission”, the Integrity Unit in
Ohio, New York, Texas, etc.
Conclusion and Relief
In summary, the WV Supreme Court adopted the lower court ruling and
concluded that Azeez:
“had filed thirty-eight petitions in the twenty-seven years since petitioner's
underlying criminal conviction. The circuit court noted that petitioner had argued the
same issues time and time again and that petitioner had filed these petitions at the
taxpayers' expense with no regardfor goodfaith pleadings ...The motion was denied
by the circuit court on February 22; 2019, because petitioner failed to comply with
the filing requirements set forth in the August 25, 2014, circuit court order. That is,
he failed to provide a full and complete financial statement andfailed to have an
attorney verify that there was a goodfaith basis for his pleading”.
In contrast, Azeez requests that this Court grant review to address the question
of whether or not the WV Supreme Court failed to address the following falsities:

7 Justice Alito, in his recent dissent in Ramos was the latest in a string of opinions bristling at the idea
that racism still shapes many policymakers’ decisions today, and that the legacy of past racism still
affect people of color (like Azeez). Alito’s Ramos dissent also, fits into a broader pattern in multiple
cases, including cases where there is a clear evidence that modern-day lawmakers acted with
invidious racial intention, Alito treats the mere suggestion that anti-black or anti-brown racism may
still play a role in policymaking with contempt.
8

(i)

It is quite erroneous and disingenuous to state that Azeez “had filed 38
petitions over 27 years” since majority of those pleadings relate to the
defunct Failure to Appear conviction the Respondent refused any relief
until the Northern District Court rightfully entertained a pro se
petition, appointed a lawyer, and reversed the conviction 17 years
ago-—the dislike of which still fingers today.

(ii)

Azeez filed a Motion for Appointment of counsel and verified that his
only income is his Social Security monthly benefit of $1,015.00 and he is
unemployed; which is complying with the Hutchison’s demands to
“provide a full and completefinancial statement”. Yet, like the email letter to the
Clerk, the Motion was completely ignored. Azeez believes if he were a white poor
person, Judge Hutchison would have appointed a lawyer knowing that Azeez was
incarcerated for nearly 13 straight years. Justice Ran Amok!!!!!

(iii)

Never in any response to Azeez’s pro se appeals the Respondent provide
a counterclaim on any of the 22 issues fisted above, especially the
suppression of the acid phosphatase (alibi) result, and systemic
exclusion of 8 Bradv evidences that support factual innocence.

(iv)

Azeez filed a Petition (not a civil complaint) regarding his criminal
conviction, and ergo, under no circumstance under the Fifth and
Fourteenth Amendments of the US Constitution due process of law the
lower court has any authority to “impose restrictions upon
Petitioner’s future filing?’ where there are laws to permit return.

(v)

For example, under WV Code §15-12-3a: Petition for removal of
sexually violent designation: “A proceeding seeking to remove a
person's designation as a sexually violent predator may be initiated by
the filing of a petition by the person so designated in the original
sentencing court. Accordingly, Azeez has a due process right to file his
Petition since he is a Level 2 registrant, and is currently registered for
life as a ‘sexually violent’ person in the State of New York. These
statues, without restrictions, allow a Registrant to return to the court of
9

conviction once per year with any factor that supports reduction or relief
from registration, or anytime evidence is acquired supporting a wrongful
conviction, as in this case. Hutchinson ignored due process of laws.
(vi)

Azeez made a good-faith attempt (Appendix Q) to cure any filing defect
or satisfy any filing requirement (unlawfully) imposed by an extremely
prejudicial Judge (John Hutchison). But the Clerk Flanagan failed to do
his ministerial duties and ignored Azeez’s request for assistance and
right to access court, obviously unaware of Judge Hutchinson.

(vii)

It is clearly unlawful and abuse of authority to compel Azeez to hire “an
attorney to verify that there was a goodfaith basis for his pleading” a restriction
that was never placed before, even during the Failure to Appear case when Azeez
discovered year and year many evidences, filing appeals after appeals, claiming
gross prosecutorial and police misconduct; some criminal in nature.

(viii) Azeez filed a Motion to Recuse Judge Hutchison citing 12 reasons that
support a 27-year history of abuse of authority, provided solid facts
illustrating prejudicial and erroneous decisions, judicial misconduct
(complaint filed), conflict of interest, unethical and improper conduct,
partiality, all supporting grounds for disqualification, but he blatantly
ignored said Motion also. Reversal of the Failure To Appear
conviction by the federal court was a slap in his face, and such should
not recur in this case at all costs. He rudely told Azeez, “The conviction
is not reversed. You just got out ofjail”.
WHEREFORE, since “the facts have been fairly presented’ in this case (as in
Haines v. Kener. 404 US 520, (1971), this Court should apply its “least stringent
standard of review” and REOPEN the case, GRANT this Petition8 or REMAND, based
on the countless facts illustrating actual innocence, additional facts supporting
exceptional circumstances, and the systemic injustice9 the Respondent repeatedly
ignored and circumvented for more than 30 years. Respectfully submitted,
bei (RIP. Mav/God rest her soul). Her
* Azeez had intention to submit this case to individual Justice Ginsberg.
legacy to free and seek justice for the “actual innocent” should live bn inker McQuiggin v. Perkins rulings.
9 Even though this petition contains only 10 pages, its content speaksa volume of the travesty of justice inflicted
on Azeez on all of his pro se attempts to clear his name. Archie Williams and dozens other wrongfully convicted
people recently proved their innocence 15 to 35 years after exhausting all appeal remedies. Archie Williams
had only fingerprint analysis, while Azeez submitted pro se, many Brady evidences. Is Azeez different?

10

